Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 THE CENTERS FOR MEDICARE &
MEDICAID SERVICES COLLECTED THE
     MAJORITY OF MEDICAID
  OVERPAYMENTS BUT MILLIONS
     REMAIN UNCOLLECTED


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     February 2013
                                                     A-05-11-00071
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Department of Health and Human Services’ (HHS) Office of Inspector General (OIG) audits
the Centers for Medicare & Medicaid Services (CMS) and its grantees and contractors relating to
the operations of the Medicaid program and reports any findings of unallowable expenditures,
such as overpayments. The Secretary of HHS has the responsibility to recover those
overpayments but has delegated that responsibility to CMS, which must aggressively and in a
timely manner collect them.

When CMS concurs with a recommendation to collect overpayments, it may sustain either the
entire amount or a different amount. If the State agrees in writing with OIG or CMS to refund
the overpayment, the State should refund it to the Federal Government. If the State does not
agree, CMS follows different procedures to resolve the OIG recommendations.

In 147 OIG audit reports issued between fiscal years 2000 and 2009, OIG recommended that
States refund Medicaid overpayments, and CMS agreed to sustain $1,213,085,167.

OBJECTIVE

Our objective was to determine whether CMS had collected sustained Medicaid overpayments
identified in selected OIG audit reports.

SUMMARY OF FINDINGS

As of December 2012, CMS reported collecting $987,481,600 of the $1,213,085,167 in
Medicaid overpayments that it had sustained in the 147 audit reports covered by our review.
However, CMS had not collected the remaining $225,603,567 because it had not always
proceeded with the collection process in a timely manner. The uncollected amount related to
overpayments that OIG had identified in 10 audit reports and that the States had not agreed to
refund.

Also, CMS could not document that $7,174,217 that it reported as collected had been collected
because it did not maintain adequate supporting documentation.

Additionally, CMS did not ensure that the States reported Medicaid overpayments on the correct
lines of the CMS-64 to facilitate CMS tracking of recoveries.

RECOMMENDATIONS

We recommend that CMS:

   •   collect the remaining $225,603,567 that is due the Federal Government,




                                                i
   •   review and address delays in resolving OIG audit recommendations and promptly pursue
       corrective actions,

   •   maintain adequate documentation to support the collection of overpayments in
       accordance with OMB Circular A-50 and CMS Standard Operating Procedures, and

   •   educate the States about their responsibility to report overpayments on the correct line of
       the CMS-64 to improve oversight of the reporting process.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS partially concurred with our first
recommendation. CMS indicated that the 10 audits with outstanding amounts identified for
recovery involve findings with which the States disagreed or did not voluntarily return the
recommended finding amounts or both. CMS further stated that these overpayments were not
immediately collected because the resolution required additional CMS review. CMS provided
additional information about actions it had taken or planned to take with respect to the
overpayments identified in 3 of the 10 audits and the status of resolution on the remaining 7
audits. CMS stated that it may have initially concurred with the findings and recommendations
on the basis of the information in the audit report but that concurrence “… is susceptible to
changing for all or a portion of the findings after review of additional information supplied by
the state, review of additional state arguments, review of OIG supporting documentation, and/or
further internal deliberation.” CMS concurred with our second, third, and fourth
recommendations and provided information on actions that it had taken or planned to take to
address them.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge CMS’s authority to change a concurrence with an OIG recommendation when
it receives new information from a State. However, until we receive an amended audit clearance
document, the original concurrence amount remains outstanding. For the remaining uncollected
amounts, including those that have been disallowed, CMS has been reviewing additional
information and pursuing collections for 3 to 7 years after initial concurrence with OIG’s
recommendations. We continue to maintain that these delays are not in accordance with the
Federal Claims Collection Act of 1966, which requires aggressive and timely collection of
overpayments, or with OMB Circular A-50 and CMS’s own policies that urge prompt resolution
and corrective action on OIG audit recommendations.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Audit Resolution ..................................................................................................1
              Process for Concurring With Office of Inspector General Report
                     Recommendations ....................................................................................2
              Centers for Medicare & Medicaid Services’ Procedures for Recovering
                     Medicaid Overpayments ..........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

          OVERPAYMENTS NOT COLLECTED........................................................................5
               Federal Requirements ..........................................................................................5
               Uncollected Overpayments ..................................................................................6

          REPORTED COLLECTIONS NOT SUPPORTED .......................................................6
               Collections Identified as Reported on CMS-64s Not Supported .........................6
               Collection Made Through Negative Grant Award Not Supported ......................6

          OVERPAYMENTS NOT REPORTED CORRECTLY ON THE CMS-64 ...................7

          RECOMMENDATIONS .................................................................................................7

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................8

APPENDIXES

          A: REPORTS COVERED IN THIS AUDIT BY YEAR ISSUED AND AMOUNT
             SUSTAINED

          B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

The Inspector General Act of 1978, 5 U.S.C. App. 3 (IG Act), established for each department
and agency an Office of Inspector General (OIG) to (1) provide independent assessments of its
programs and operations, (2) help promote the economy and efficiency of its programs and
operations, and (3) keep the head of each agency and department and Congress informed about
problems and deficiencies in the administration of its programs and operations. Under the IG
Act, it is the “duty and responsibility” of an OIG to conduct audits of agency expenditures. To
fulfill this obligation, the Department of Health and Human Services’ (HHS) OIG audits the
Centers for Medicare & Medicaid Services (CMS) and its grantees and contractors relating to the
operations of the Medicaid program 1 and reports any findings of unallowable expenditures.

Federal regulations (42 CFR § 433.304) define an overpayment as “… the amount paid by a
Medicaid agency to a provider which is in excess of the amount that is allowable for services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” Under section 1903(d)(2)(A) of the Act, the Secretary of HHS must recover the
Federal share of a Medicaid overpayment from the State. The Secretary has delegated that
responsibility to CMS. Pursuant to the Federal Claims Collection Act of 1966 (FCCA), as
amended, and 45 CFR §§ 30.2 and 30.10, CMS must aggressively and in a timely manner collect
the Federal share of all overpayments owed to CMS by the State.

Office of Management and Budget (OMB) Circular A-50, section 11, requires each Federal
agency to establish accounting and collection controls to ensure effective recovery of amounts
due the Government as a result of resolved audit findings and recommendations. Audit
resolution occurs when the management of both CMS and OIG agree on actions to take on
reported findings. CMS concurred with recommendations to refund sustained 2 Medicaid
improper payments totaling $1,213,085,167 (Federal share) identified in 147 OIG audit reports
issued between fiscal years (FY) 2000 and 2009. 3 We conducted the current audit to determine
whether CMS had collected sustained Medicaid overpayments identified in selected OIG audit
reports.

Audit Resolution

OMB Circular A-50 Revised, Audit Followup (the Circular), sets out policies and procedures for
executive agencies to use when considering OIG audit reports that require followup.

1
  Title XIX of the Social Security Act (the Act) established Medicaid, which provides medical assistance to low-
income individuals and individuals with disabilities. The Federal and State Governments jointly fund and
administer Medicaid. At the Federal level, CMS administers the program.
2
  The amount sustained is the amount that CMS agrees should be collected and/or offset against Medicaid payments
to the State.
3
    All dollar amounts in this report are Federal share amounts, except where noted.



                                                            1
Section 6(b) of the Circular defines audit resolution as having occurred when the management of
both the audit organization and the agency agree on action to take on reported findings. Section
8(a)(2) of the Circular requires resolution of audit recommendations within 6 months after
issuance of a final report and states that “[c]orrective action should proceed as rapidly as
possible.”

Process for Concurring With Office of Inspector General Report Recommendations

CMS policy also states that all audit recommendations in OIG reports should be resolved within
6 months of the report issuance dates. As detailed in the HHS Financial Accounting Policy
Manual, section 10-41-V, CMS uses the OIG Clearance Document (OCD) to report its
management decisions and actions taken on both monetary and nonmonetary recommendations.
The OCD lists each audit report recommendation and indicates CMS’s concurrence or
nonconcurrence with each.

CMS may concur with a recommendation to collect overpayments but elect to sustain an amount
that differs from the amount recommended for collection. CMS shows the amount that it agrees
to recover as a sustained amount on the OCD. CMS considers recommendations to be cleared
when it reports actions to be taken on recommendations, when it submits the completed OCD to
OIG, and when OIG accepts it. CMS considers recommendations to be closed when the agreed-
upon actions have been implemented.

Centers for Medicare & Medicaid Services’ Procedures for Recovering Medicaid
Overpayments

Pursuant to the CMS State Medicaid Manual (the Manual), section 2500.6(O), when OIG
performs an audit and recommends a financial adjustment and a State agrees in writing with OIG
or CMS to refund the overpayment, the State should refund the unallowable expenditure on the
next Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64), submitted after the written agreement. 4 The Manual states that when a State
does not report the adjustment on the next CMS-64 submission, CMS should initiate a negative
grant award 5 within 15 days of receiving the CMS-64 that should have included the refund.

CMS’s Regional Office Standard Operating Procedure, Number FM-8, “Audit Resolution
Process” (SOP FM-8), sets forth CMS policies for followup on OIG audit recommendations. If a
State concurs with OIG, CMS describes in the OCD the action the State has taken or plans to
take to address OIG’s recommendation.

If the State does not concur, CMS, as directed by SOP FM 8, contacts the appropriate State
officials to discuss the audit findings and obtain documentation to substantiate the State’s

4
  The Federal Government pays its share (Federal share) of State Medicaid expenditures according to a defined
formula. To receive Federal reimbursement, State Medicaid agencies are required to report expenditures on the
CMS-64.
5
    A negative grant award is an offset that CMS makes against the State’s quarterly Medicaid grant award.



                                                           2
position. If CMS agrees with the State’s decision, CMS follows certain procedures to
“nonconcur” with OIG and close the recommendation on the OCD. The adjusted OCD should
then be submitted to OIG so OIG can approve or disapprove the decision within 6 months after
the audit report is issued.

When CMS does not agree with the State’s decision to nonconcur, CMS must clear the
recommendation and initiate the disallowance process. CMS closes the OCD either after the
State has taken action necessary to fully implement all the audit recommendations or after CMS
issues a disallowance letter.

Federal regulations (42 CFR § 430.42) required the CMS Regional Administrator or the CMS
Administrator to promptly send the State a disallowance letter when he or she determined that a
claim or portion of a claim was not allowable. If the State disagreed with the disallowance, it
had 30 days to request appeal of the disallowance to the Departmental Appeals Board (DAB). 6
Pursuant to section 1903(d)(5) of the Act, the State may retain the disallowed amount while this
appeal is in process. If the disallowance is upheld, CMS makes a negative grant award to offset
the amount of the disallowance plus interest from subsequent Medicaid payments to the State.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS had collected sustained Medicaid overpayments
identified in selected OIG audit reports.

Scope

We initially identified 152 OIG audit reports that we had issued to 11 States during FYs 2000
through 2009. 7 We judgmentally selected the 11 States on the basis of the high total dollar
amount of sustained overpayments and included at least 1 State from each OIG region.

These reports included recommendations that the States and providers refund Medicaid
overpayments. For these 152 reports, CMS sustained a total of $1,775,082,701 of the amounts
we recommended for refund. We excluded from our review five reports with collections being
handled by the Department of Justice, which totaled $561,997,534. For the remaining 147
reports, CMS sustained a total of $1,213,085,167 of the amounts we recommended for refund.
Appendix A summarizes the number of reports by year and by total sustained overpayments.


6
 Effective June 28, 2012, States have the option to request reconsideration of a Medicaid disallowance from the
CMS Administrator during the 60-day period following receipt of notice of the disallowance. Alternatively, or in
addition, States may obtain review by the DAB of either the initial agency decision or the reconsidered decision.
See 77 Fed. Reg. 31499 (May 29, 2012), finalizing changes to 42 CFR § 430.42.
7
 To identify the long-term collection activities related to OIG audit report findings, we chose to review a 10-year
period. We used 2009 as the end of our audit period to allow CMS the required 6 months to make its management
decisions and to provide additional time for collections to occur.



                                                         3
Our review did not require an understanding or assessment of CMS’s overall internal control
structure. We limited our review of CMS’s internal controls to those related to our objective.

We performed fieldwork at CMS regional and field offices in Boston, Massachusetts; Trenton,
New Jersey; Albany, New York; Philadelphia, Pennsylvania; Chicago, Illinois; Kansas City,
Missouri; and Denver, Colorado, and at the CMS Central Office in Baltimore, Maryland.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal requirements;

   •   reviewed OCDs for audit recommendations cleared by CMS and identified amounts
       sustained by CMS for recovery;

   •   obtained and reviewed CMS policies and procedures relating to sustaining OIG
       recommendations and recovering overpayments;

   •   interviewed CMS officials to gain an understanding of the overpayment recovery
       process;

   •   judgmentally selected 11 States—Florida, Indiana, Illinois, Kansas, Louisiana,
       Massachusetts, Missouri, New York, New Jersey, Oregon, and Pennsylvania—for our
       review on the basis of their high total dollar amount of sustained overpayments;

   •   identified 152 audit reports that we issued to 11 selected States during FYs 2000 through
       2009 and reviewed CMS collection efforts on 147 of those audit reports with sustained
       overpayments totaling $1,213,085,167;

   •   reviewed the relevant CMS-64s; OCDs; supporting documentation; and negative grant
       awards, if applicable, for all 147 audit reports to determine whether the overpayments
       had been refunded by the State;

   •   reviewed CMS’s internal system (Audit Tracking and Reporting System) to (1) track
       CMS’s progress in clearing and closing OIG audit recommendations, (2) identify CMS’s
       actions taken to recover overpayments, and (3) track States’ actions to address
       recommendations; and

   •   determined whether CMS issued negative grant awards for overpayments that the States
       did not report on their CMS-64s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

As of December 2012, CMS reported collecting $987,481,600 of the $1,213,085,167 in
Medicaid overpayments that it had sustained in the 147 audit reports covered by our review.
However, CMS had not collected the remaining $225,603,567 because it had not always
proceeded with the collection process in a timely manner. The uncollected amount related to
overpayments that OIG had identified in 10 audit reports and that the States had not agreed to
refund.

Also, CMS could not document that $7,174,217 that it reported as collected had been collected
because it did not maintain adequate supporting documentation. Additionally, CMS did not
ensure that the States reported Medicaid overpayments on the correct lines of the CMS-64 to
facilitate CMS tracking of recoveries.

OVERPAYMENTS NOT COLLECTED

Federal Requirements

In accordance with the FCCA and implementing regulations, CMS should aggressively and in a
timely manner collect all overpayments and audit disallowance determinations. OMB Circular
A-50 requires agencies to establish accounting and collection controls to ensure effective
recovery of amounts due the Government as a result of resolved OIG audit findings and
recommendations. The Circular specifies prompt resolution and corrective actions on OIG
recommendations, including audit resolution within 6 months after issuance of a final report and
corrective action “as rapidly as possible.” The Circular requires maintaining accurate records of
the status of audit recommendations through the entire process of resolution and corrective
action.

Pursuant to the Manual, section 2500.6(O), when OIG performs an audit and recommends a
financial adjustment and a State agrees in writing to OIG or CMS to refund the overpayment, the
State should refund the unallowable expenditure on the next CMS-64. The Manual states that if
the State does not make such an adjustment, CMS should initiate a negative grant award within
15 days of receiving the CMS-64 that should have included the refund.

SOP FM-8 states that if the State does not concur with OIG’s recommendations, CMS should
contact State officials to discuss the findings. If CMS concurs with OIG’s recommendation but
the State continues to disagree, CMS initiates a disallowance process. Under 42 CFR § 430.42,
the CMS Regional Administrator or the CMS Administrator promptly sends the State a
disallowance letter when he or she determines that a claim or portion of a claim is not allowable.
The letter is the Department’s final decision unless the State requests reconsideration by DAB.




                                                5
Uncollected Overpayments

CMS had not collected $225,603,567 relating to 10 reports as of the end of our fieldwork. For
all 10 reports, the States did not agree to refund the uncollected amounts of sustained
overpayments. Although CMS did not agree with the States’ decisions not to refund the
sustained overpayments, CMS did not collect the overpayments in a timely manner, as shown in
the table.

        Table: Elapsed Time From the Date of the Office of Inspector General Clearance
                        Document for 10 Overpayments Not Collected
                                  Date Audit                            Outstanding        Months from
             Report No.                               OCD Date                             OCD Date to
                                    Issued                               Amount
                                                                                            12/31/12 8
            A-07-05-03071           5/23/2005         11/21/2005           $715,377            86
            A-07-06-03075          10/20/2006          5/23/2007         $1,065,655            68
            A-07-06-01029           3/23/2007          9/14/2007         $8,235,595            64
            A-07-04-03058           8/30/2007           3/6/2008         $1,355,942            59
            A-05-01-00102          10/18/2004          7/24/2008         $4,516,112            54
            A-05-01-00099          10/13/2004          7/24/2008       $140,281,912            54
            A-07-06-04063           6/13/2008         10/17/2008         $2,937,056            51
            A-05-06-00045           5/13/2008         11/24/2008        $34,008,370            50
            A-02-07-01028           5/26/2009          9/22/2009        $16,189,125            40
            A-05-07-00076           3/30/2009          10/1/2009        $16,298,423            39

REPORTED COLLECTIONS NOT SUPPORTED

Collections Identified as Reported on CMS-64s Not Supported

CMS reported collections of $7,013,566 for eight reports but did not provide the supporting
documentation that the collections were reported on the CMS-64s. CMS could not support that:

        •    $3,845,032 was collected for three reports via offsets on the CMS-64 and

        •    $3,168,534 was collected for five reports resolved under a blanket OCD.

Collection Made Through Negative Grant Award Not Supported

CMS officials informed us that CMS had processed a negative grant award to collect $160,651
for one overpayment. However, CMS did not provide documentation supporting that it made the
negative grant award. The negative grant award documentation that CMS provided did not show
the amount withheld.


8
    We have updated this table with CMS collections information through the end of 2012.


                                                          6
OVERPAYMENTS NOT REPORTED CORRECTLY ON THE CMS-64

CMS did not ensure that the States reported all Medicaid overpayments correctly on the
CMS-64. The Manual, section 2500.6(O), requires State agencies to report unallowable
Medicaid amounts identified by OIG audits on either line 10A or 10B of the CMS-64. For 20 of
the sampled overpayments that were reported on the CMS-64, CMS allowed the States to report
these overpayments incorrectly. Reporting overpayments on the correct line of the CMS-64
allows for ease of tracking overpayments and improved oversight. CMS can more easily verify
that overpayments have been reported if the States follow the Manual and report unallowable
amounts on either line 10A or 10B.

RECOMMENDATIONS

We recommend that CMS:

   •   collect the remaining $225,603,567 that is due the Federal Government,

   •   review and address delays in resolving OIG audit recommendations and promptly pursue
       corrective actions,

   •   maintain adequate documentation to support the collection of overpayments in
       accordance with OMB Circular A-50 and CMS Standard Operating Procedures, and

   •   educate the States about their responsibility to report overpayments on the correct line of
       the CMS-64 to improve oversight of the reporting process.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS partially concurred with our first
recommendation. CMS indicated that the 10 audits with outstanding amounts identified for
recovery involve findings with which the States disagreed or did not voluntarily return the
recommended finding amounts or both. CMS further stated that these overpayments were not
immediately collected because the resolution required additional CMS review. CMS provided
additional information about actions it had taken or planned to take with respect to the
overpayments identified in 3 of the 10 audits and the status of resolution on the remaining 7
audits. CMS stated that it may have initially concurred with the findings and recommendations
on the basis of information in the audit report but that concurrence “… is susceptible to changing
for all or a portion of the findings after review of additional information supplied by the state,
review of additional state arguments, review of OIG supporting documentation, and/or further
internal deliberation.” CMS concurred with our second, third, and fourth recommendations and
provided information on actions that it had taken or planned to take to address the
recommendations.

CMS’s comments are included in their entirety as Appendix B.




                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge CMS’s authority to change a concurrence with an OIG recommendation when
it receives new information from a State. However, until we receive an amended audit clearance
document, the original concurrence amount remains outstanding. For the remaining uncollected
amounts, including those that have been disallowed, CMS has been reviewing additional
information and pursuing collections for 3 to 7 years after initial concurrence with OIG’s
recommendations. We continue to maintain that these delays are not in accordance with FCCA,
which requires aggressive and timely collection of overpayments, or with OMB Circular A-50
and CMS’s own policies that urge prompt resolution and corrective action on OIG audit
recommendations.




                                              8
APPENDIXES
APPENDIX A: REPORTS COVERED IN THIS AUDIT
  BY YEAR ISSUED AND AMOUNT SUSTAINED


        Fiscal    No. of   Sustained
        Year     Reports    Amount
        2000            4      $881,644
        2001           11   165,959,332
        2002           17    48,402,963
        2003           14    39,595,813
        2004           16    42,635,333
        2005           17   291,636,556
        2006           19   317,888,109
        2007           14    59,985,400
        2008           17   134,135,387
        2009           18   111,964,630
        Total        147 $1,213,085,167
                                                                              Page 1 of 4
      APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
     DEPARTMENT OF HEALTH & HUMAN SERVICES             Centers for Medicare & Medicaid Services


                                                                                Office of the Administrator
                                                                                Washington, DC 20201




DATE: 	       DEC 1 3 2012
TO: 	          Daniel R. Levinson
               Inspector General

FROM:


SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "The Centers for Medicare &
           Medicaid Services Collected the Majority of Medicaid Overpayments but
           Millions Remain Uncollected" (A-05-11-00071)


Thank you for the opportunity to review and comment on the above-referenced report. The
Centers for Medicare & Medicaid Services (CMS) appreciates the contributions and valuable
input from OIG on the subject of this study. The report outlined concerns with timely collection,
accurate reporting, and maintaining adequate supporting documentation for Medicaid
overpayments. The report concluded that of the $1,213,085,167 in overpayments reviewed by
OIG, CMS had not timely collected the remaining overpayment of $226,406,165. Additionally,
the report found that CMS could not provide adequate documentation to support amounts that it
had reported as collected and that CMS did not ensure that states reported Medicaid
overpayments on the correct lines of Form CMS-64. OIG identified 152 OIG audit reports from
11 selected states for the periods of FY 2000 through 2009. OIG excluded five reports that were
being handled by the Department of Justice.

OIG Recommendation:

The OIG recommends CMS collect the remaining $226,406,165 that is due the Federal
Government.

CMS Response:

The CMS concurs in part. The 10 audits (of 152 audits reviewed) with outstanding amounts
identified for recovery involve findings with which the states disagreed and/or did not
voluntarily return the recommended finding amount. These overpayments identified by OIG
were not immediately collected because the resolution required additional CMS review. In these
cases, CMS must review the states' arguments for disagreement to determine whether OIG had
properly interpreted the applicable law, regulations, state plans, and policies. While CMS may
have initially concurred with the findings and recommendations based on the information in the
audit report, that concurrence is susceptible to changing for all or a portion of the findings after
                                                                                                 Page 2 of 4
Daniel R. Levinson -	 Page - 2


review of additional information supplied by the state, review of additional state arguments,
review of OIG supporting documentation, and/or further internal deliberation.

Of these 10 identified audits, CMS issued disallowances to collect overpayments related to the
following 2 audits:

    • 	 A-07-05-03071- Review ofMissouri's Accounts Receivable System for Medicaid 

                        Provider Overpayments 

        o CMS issued a disallowance (M0/2012/002/MAP) to the State of Missouri in the
            amount of $704,194 Federal Financial Participation (FFP) on July 24, 2012.
    • 	 A-07-06-03075- Medicaid Payments for Skilled Professional Medical Personnel to
                         Missouri School Districts
        o 	 CMS issued a disallowance (M0/2012/001/ADM) to the State of Missouri in the
            amount of $963,967 FFP on July 24, 2012.

The CMS collected $54,228,046 FFP of the $88,236,417 FFP that the OIG identified as an
overpayment in the following audit. The state produced documentation demonstrating the
allowability of the remaining $34,008,371 FFP. Accordingly, CMS set aside the remaining
amount and will amend the audit clearance document to non-concur with this portion of the audit
finding amount.

    • 	 A-05-06-00045- Review ofIndiana Medicaid Disproportionate Share Hospital 

                       Eligibility for 7/1/00- 6/30!03 


The CMS is close to resolving the recommendations for the following 5 audits:

    • 	 A-07-06-01029- Review ofMissouri Provider Tax
        A-07-04-03058 - Review ofMedicaid Reimbursement ofGraduate Medical Education in
                        Missouri
    • 	 A-05-01-00102- Review ofIllinois Medicaid Disproportionate Share Hospital Payments
                        toMaunt Sinai Hospital ofChicago
    • 	 A-05-01-00099- Review ofIllinois Medicaid Disproportionate Share Hospital Payments
                        to the University ofIllinois at Chicago Hospital
    • 	 A-05-07-00076- Review ofMedicaid Participation Eligibility for One Indiana State­
                        owned Psychiatric Hospital for the Period July I, 1996, Through June
                        30,2007

The CMS is actively reviewing the following 2 audits, which require significant resources due to
the amount and complexity of the documentation under review:

    • 	 A-07-06-04063- Review ofMedicaid Outpatient Drug Expenditures in Missouri for the
                       Period 1011102- 9/30/04
    • 	 A-02-07-01028- Review ofMedicaid Outpatient Drug Expenditures in the State ofN ew
                       York for the Period 10/1/03- 9!30!05
                                                                                               Page 3 of 4
Daniel R. Levinson - Page - 3


OIG Recommendation:

The OIG recommends CMS review and address delays in resolving OIG audit recommendations
and promptly pursue corrective actions.

CMS Response:

The CMS concurs, appreciating the points made above in the discussion of the first
recommendation regarding the need to conduct additional development in some cases. We
continue to work toward improvement in these matters and a reduction of the time needed to
resolve them, while maintaining appropriate protections to ensure the accuracy of these
determinations. CMS has been actively engaged in process improvement and staff training to
ensure timely resolution of OIG audit recommendations. Some relevant activities conducted by
CMS include:

    • 	 Participating in the HHS Single State Audit Metrics Initiative, the goal of which is to
        hold grantees and HHS program offices accountable to ensure deficiencies identified by
        the single state audit that cause an "unclean" opinion are corrected in a timely manner.
        The CMS Single State Audit Metrics Initiative Work Group broadened the focus of the
        project to extend to all Medicaid external audits. Audit resolution officials from each
        CMS region and CMS central office staff are members of the group.

    • 	 Initiating an internal work group which is reviewing and updating the Consortium for
        Medicaid and Children' s Health Operations (CMCHO) Standard Operating Procedures
        (SOP) in regard to audit resolution.

    • 	 CMCHO implementing new standard dashboard reporting to facilitate internal CMS
        communication. This reporting is intended to promote and to ensure timely audit
        resolution and to prevent repeat audit findings.

    • 	 CMCHO audit resolution team members participating in audit resolution training
        presented by the CMS Audit Management Division. The training focuses on adherence
        to all pertinent guidelines, consistent resolution practices, and timeliness of audit
        resolution activities.

OIG Recommendation:

The OIG recommends CMS maintain adequate documentation to support the collection of
overpayments in accordance with OMB Circular A-50 and CMS Standard Operating Procedures.

CMS Response:

The CMS agrees and will take additional steps to improve documentation. CMS will ensure that
it maintains adequate documentation to support the collection of overpayments in accordance
with OMB Circular A-50 and CMS SOP, within document retention guidelines.
                                                                                               Page 4 of 4
Daniel R. Levinson - Page - 4



OIG Recommendation:

The OIG recommends CMS educate the states about their responsibility to report overpayments
on the correct line of Form CMS-64 to improve oversight of the reporting process.

CMS Response:

The CMS agrees that states should be reminded of their obligation to report overpayments. CMS
will offer additional training to states that emphasizes the importance of reporting overpayments
on the correct line of Form CMS-64.

The CMS appreciates the efforts that went into this report and looks forward to working with
OIG on this and other issues in the future.
